March 17, 2021
Via Electronic Filing and Email
Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE: Gloucester Cnty. Sch. Bd. v. Grimm (No. 20-1163)
Dear Mr. Harris:
On behalf of Respondent Gavin Grimm, I write to request a 60-day
extension of Respondent’s time to file a brief in opposition to the
petition for writ of certiorari from March 26, 2021, to May 25, 2021.
National Office
125 Broad Street
18th Floor
New York, NY 10004
aclu.org

Respondent seeks this extension in light of counsel’s competing
personal and professional obligations, including challenges resulting
from the COVID-19 public health emergency and resulting disruptions
to professional and personal life.

Deborah N. Archer
President

Petitioner through counsel has indicated they do not object to this
request, provided that Respondent does not seek another extension.

Anthony D. Romero
Executive Director

Thank you for your attention to this matter.
Respectfully,
/s/ Joshua A. Block
Joshua A. Block
Counsel for Respondent Gavin Grimm
cc:

Gene Clayton Schaerr, Counsel for Petitioner
Jeffrey Atkins, Deputy Clerk
Danny Bickell, Deputy Clerk

